APPENDIX A
In The United States Court Of Appeals For The
Fifth Circuit
No. 19-10067
Summary Calendar D.C. Docket No. 4:18-CV-127

TIMOTHY C. YOAKUM,
UNITED STATES COURT OF APPEALS
FIFTH CIRCUIT
FILED

Plaintiff — Appellant

AUGUST
V.

22, 2019

LYLE W. CAYCE CLERK

SABRE GLBL INCORPORATED,
Defendant - Appellee

Appeal from the United States District Court for the
Northern District of Texas

JUDGMENT
This Before WIENER, HAYNES, and COSTA, Circuit
Judges.
Cause was considered on the record on appeal and the
briefs on file. It is ordered and adjudged that the judgment
of the District Court is affirmed. See Rule 47.6.

IT IS FURTHER ORDERED that plaintiff-appellant pay to
defendant- appellee the costs on appeal to be taxed by the
Clerk of this Court.

a

f iff

USS3B

i«i

gf

mSE111In

5*ki

Certified as a true copy and issued as the
mandate on Sep 13, 2019
Attest:

W. Ctuju
Clerk, U.S. Court of Appeals
Fifth Circuit

I

IN THE UNITED STATES COURT OF APPEALS FOR
THE FIFTH CIRCUIT
No. 19-10067
Summary Calendar

TIMOTHY YOAKUM
UNITED STATES COURT OF

V.

Plaintiff — Appellant

APPEALS
FIFTH CIRCUIT

SABRE GLBL INCORPORATED,

FILED
AUGUST

Defendant - Appellee

Appeal from the United States District Court for the
Northern District of Texas
USDC No. 4:18-CV-127

Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM:*

AFFIRMED. See Rule 47.6.
* Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not
precedent except under the limited circumstances set forth
in 5TH CIR. R. 47.5.4.

22, 2019

LYLE W. CAYCE CLERK

t

APPENDIX B
United States Court of Appeals Fifth Circuit
Office Of The Clerk
Memorandum To Counsel Or Parties Listed Below:
No. 19-10067

Timothy Yoakum
v.
Sabre GLBL Incorporated

USDC No. 4:18-CV-127

Enclosed is an order entered in this case.

Mr. John Hunter Johnson
Ms. Karen S. Mitchell
Mr. Timothy C. Yoakum

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10067
TIMOTHY C. YOAKUM,
Plaintiff - Appellant
v.
SABRE GLBL INCORPORATED,
Defendant - Appellee

Appeal from the United States District Court for the
Northern District of Texas
ON PETITION FOR REHEARING

Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM:
IT IS ORDERED that Appellant's motion for leave to file
petition for rehearing out of time is GRANTED. IT IS
FURTHER ORDERED that the petition for rehearing is
DENIED.
ENTERED FOR THE COURT:
/s/ Jacques L. Wiener, Jr.
UNITED STATES CIRCUIT JUDGE

APPENDIX C
In The United States District Court Northern District Of Texas Fort Worth
Division

IN THE UNITED STATES DISTRICT
COURT NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
TIMOTHY C. YOAKUM,

§

PLAINTIFF,

§
§

VS.

§

SABRE GLBL, INC. I

§
§

DEFENDANT.

§
§

NO. 4:18-CV-127-A

: tege 1 oP^DI'o'll.ic^q.AXAs
NOR™ FILED
OURT

DEC 1 9 2018
CLERK, U S. DISTRICT COURT
Uv*—v:-—

MEMORANDUM OPINION ORDER
Plaintiffs Claims
On February 1, 2018, plaintiff filed his complaint in this action. Doc.1 He
alleges that he was discriminated against by defendant on the basis of his race
and sex2. He asserts causes of action for race and sex discrimination under 42
U.S.C. §§ 2000e to 2000e-17 ("Title VII"), 42 U.S.C. § 1981 ("§ 1981"), and
Chapter 21 of the Texas Labor Code ("Chapter 21").

Grounds of the Motion
Defendant maintains that plaintiff cannot prevail on any of his claims. Specifically:
A sex discrimination claim is not cognizable under§ 1981.Plaintiff cannot pursue his
claims under Chapter 21 since the Texas Workforce Commission did not ever receive
his charge. Those claims are time-barred in any event. Any claims based on events
that occurred more than 300 days before plaintiff filed his EEOC charge are timebarred. Even if not time-barred, plaintiff cannot prevail on his discrimination claims
because he cannot establish a prima facie case of discrimination. And, he cannot
establish constructive discharge. Even if plaintiff could make a prima facie case, he
cannot overcome defendant's articulated legitimate, non-discriminatory reasons for
its actions. And, respondent superior is not a cause of action.

1 The “Doc.” Reference is to the number of the item on the docket in this action.
2 Plaintiff confusingly refers to “sex/gender” making it difficult to determine what he is really
alleging. 'See, e.g., Doc 61.

Applicable Summary Judgment Principles
Rule 56(a) of the Federal Rules of Civil Procedure provides that the court shall grant
summary judgment on a claim or defense if there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(a); Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247 (1986). The movant bears
the initial burden of pointing out to the court that there is no genuine dispute as to
any material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323, 325 (1986) The movant
can discharge this burden by pointing out the absence of evidence supporting one or
more essential elements of the nonmoving party's claim, "since a complete failure of
proof concerning an essential element of the nonmoving party's case necessarily
renders all other facts immaterial." Id. at 323. Once the movant has carried its burden
under Rule 56(a), the nonmoving party must identify evidence in the record that
creates a genuine dispute as to each of the challenged elements of its case. Id. at 324;
see also Fed. R. Civ. P. 56(c) ("A party asserting that a fact ... is genuinely disputed
must support the assertion by citing to particular parts of materials in the record”).
If the evidence identified could not lead a rational trier of fact to find in favor of the
nonmoving party as to each essential element of the nonmoving party's case, there is
no genuine dispute for trial and summary judgment is appropriate. Matsushita Elec.
Indus. Co. v. Zenith Radio Corp.,475 U.S. 574, 587, 597 (1986). In Mississippi Prot. &
Advocacy Sys., Inc. v. Cotten, the Fifth Circuit explained: Where the record, including
affidavits, interrogatories, admissions, and depositions could not, as a whole, lead a
rational trier of fact to find for the nonmoving party, there is no issue for trial. 929

F.2d 1054, 1058 (5th Cir. 1991). The standard for granting a motion for summary
judgment is the same as the standard for rendering judgment as a matter of law.3
Celotex Corp., 477 U.S. at 323. If the record taken as a whole could not lead a rational
trier of fact to find for the non-moving party, there is no genuine issue for trial.
Matsushita, 475 U.S. at 597; see also Mississippi Prot. & Advocacy Sys., 929 F.2d at
1058.

Undisputed Facts
The summary judgment evidence establishes:
Plaintiff is a Caucasian male. Doc. 1,1. Plaintiff worked for defendant from 1998 until
December 2001, when he was laid off. Doc. 19 at APP 5. He was re- employed by
defendant approximately three years later, in 2004. Id. In 2015 and 2016, plaintiffs
title was "Principal Named Accounts." Id. He described his duties as selling the
accounts and managing the accounts. Id. His duties included coordinating with
various functions within the company to ensure customer requests were handled
appropriately and in a timely manner. Id. at APP 6. Plaintiffs compensation
consisted of salary and bonus. Id. Plaintiff reported to Chris Wilding, a Caucasian
male, until 2014, when Wilding was promoted to Senior Vice President of Sales
Management. At that point, Chad Tibor, a Caucasian male, became plaintiffs
supervisor. Tibor reported to Wilding. Id. at APP 7, APP 43. Plaintiffs 2015 year-end

3 In Boeing Co. v. Shipman, 411 F.2d 365, 374-75 (5th Cir. 1969) (en bane), the Fifth Circuit
explained the standard to be applied in determining whether the court should enter judgment on
motions for directed verdict o\" for judgment notwithstanding the verdict.

performance review reflected that although plaintiff met or exceeded his goals for the
year, he did not measure up with regard to defendant's values. Doc. 19 at APP 59-65.
Plaintiff needed to make significant improvements in the areas of dependability,
punctuality, and organization, at APP 64. He was regularly late to calls and meetings
and demonstrated a lack of urgency when required. Internal complaints had been
lodged, as well as customer complaints. Id. Accordingly, plaintiff received a rating of
"partially successful as his overall performance rating. Id. at APP 65. Plaintiff was
not awarded any discretionary stock options and his bonus was lower than it had
been in the previous two years. Id. at APP 44. Plaintiff spoke with a male Caucasian
colleague who got a larger bonus than in prior years. Doc. 19 at APP 11. Defendant
awarded discretionary stock options to

Rowena Capili because she had

demonstrated outstanding performance and received a rating of "highly successful"
on her 2015 year-end performance review. Id. at APP 44, APP 69-76. Capili was an
account manager for the operational side of the business. Id. at APP 7. She had a
different role than plaintiff. Id. at APP 6.
In August and September 2016, Tibor requested plaintiff to work in the office during
normal business hours instead of working from home. Doc. 19 at APP 18, APP 43-44.
Tibor believed that if plaintiff was in the office some of the costly delays in getting
information could be avoided. Id. at APP 53. Plaintiff believed Tibor made a second
set of rules just for him, since "nobody else [had] to come into the office five days a
week 9:00 to 5:00." Doc. 24 at R. App. 12. Capili was allowed to work from Houston
two weeks out of every month. Id. at R. App. 13.

In February 2017, Tibor put plaintiff on a performance improvement plan ("PIP").
Doc. 19 at APP 44, APP 78-79.The PIP identified specific areas that plaintiff needed
to address,

e.g., not being responsive to clients and failing to meet

deadlines.

Id. at APP 78. The PIP gave plaintiff thirty days to improve his performance. Id. at
APP 79. The first working day after receiving the PIP, plaintiff submitted his written
resignation. Id. at APP 44, APP 81.

Analysis
The same analysis applies to claims under Title VII

and § 19814 Shackelford v.

Deloitte & Touche, L.L.P., 190 F.3d 398, 403-04 n.2 (5th Cir. 1999). To establish a
prima facie claim for discrimination plaintiff must show that: (1) he is a member of
a protected group; (2) he was qualified for the position at issue; (3) he suffered an
adverse employment action by his employer; and (4) he was replaced by someone
outside the protected group or was treated less favorably than other similarly
situated employees. McCoy v. City of Shreveport, 492 F.3d 551, 556 (5th Cir. 2007).
An adverse employment action is an ultimate employment decision. Felton v. Polles,
315 F.3d 470, 486 (5th Cir. 2002). Ultimate employment decisions include hiring,
firing, demoting, promoting, granting leave, and compensating. Thompson v. City of
Waco, 764 F.3d 500, 503 (5th Cir. 2014). An employer's action does not rise to the
level of adverse if it fails to have more than a tangential effect on a possible future

4 The same analysis also applies to claims under Chapter 21. Shackelford v. Deloitte & Touclle,
L.L.P., 190 F.3d 398, 403-04 n.2 (5th Cir. 1999). As discussed, in fra, plaintiff concedes that he cannot
pursue his Chapter 21 claims.

ultimate employment decision. Mota v. Univ. of Tex. Houston Health Sci. Ctr., 261
F.3d 512, 519 (5th Cir. 2001). For example, placing an employee on a performance
improvement plan is not an adverse employment action. Turner v. Novartis Pharms.
Corp., 442 F. App'x 139, 141 (5th Gir. 2011). Plaintiff argues that the facts of his case
are distinguishable from those of Turner. But he fails to point to evidence to establish
a genuine fact issue as to any adverse employment action. Plaintiffs receipt of a
smaller bonus than in prior years was not connected to his PIP; nor was his failure
to receive stock options. Those events were tied to his 2015 performance review,
which took place a year before the PIP. Further, plaintiff has nothing but his own
speculation to support the contention that the PIP invariably would have resulted in
his termination . Plaintiff resigned instead of making any effort whatsoever to
improve his performance or even address what he considered to be unjust
requirements. His allegations regarding receiving a review by telephone rather than
in person, being informed about a reorganization that never occurred, and being
required to work in the office instead of from home do not amount to ultimate
employment actions. See, e.g., Allbritain v. Texas Dep't of Ins., No. A-12-CA-431-SS,
2014 WL 272223, at *4 (W.D. Tex; Jan. 23, 2014){denial of participation in
telecommuting is not an adverse employment action); Thomas v. Napolitano, No.
3:10-CV-265-B, 2013 WL 12250942; at *18 {N.D. Tex. Jan. 15, 2013) (failure to receive
notification via normal methods is not an adverse employment action).
Plaintiff alleges that he was constructively discharged, which is an adverse
employment action. Doc. 23 at 13-14. But, to establish a claim for constructive

discharge, plaintiff must show that his working conditions were so intolerable that a
reasonable employee would have felt compelled to resign. Green v. Brennan, 136 s.
Ct. 1769, 1776 (2016); Faruki v. Parsons S.I.P., Inc., 123 F.3d 315, 319 (5th Cir. 1997).
Discrimination alone is not enough; nor is mere failure to promote. Brown v. Kinney
Shoe
Corp., 237 F.3d 556, 566 (5th Cir. 2001). Constructive discharge requires a greater
degree of harassment than required to establish a hostile work environment (as
discussed infra). Id. Here, there is simply no evidence to support the contention that
a reasonable person in plaintiffs position would have been compelled to resign.
Even assuming plaintiff could point to any adverse employment action, he has not
shown that he was treated differently from any similarly situated employee. The
summary judgment evidence establishes that Capili had a better performance review.
And, plaintiff himself testified that her job duties were not the same as his. He also
testified that a male employee received a bigger bonus than in prior years. And he
testified that he was the only one required to work in the office five days a week. In
sum, plaintiff has not made, and cannot make, a prima facie case of discrimination of
any kind. Merely disputing his performance assessment by defendant is not enough.
Arey v. Watkins, 385 F. App'x 401, 404 (5th Cir. 2010). To prove his claim for hostile
work environment, plaintiff must show : (1) plaintiff belongs to a protected group; (2)
he was subjected to unwelcome harassment; (3) the harassment was based on his
protected status; (4) the harassment affected a term, condition, or privilege of
employment; and, (5) defendant knew or should have known about the harassment

and failed to take prompt remedial action. Ramsey v. Henderson, 286 F.3d 264, 268
(5th Cir. 2002). To be actionable, the harassment must be both objectively and
subjectively offensive. Harvill v. Westward Communications.L.L. C., 433 F.3d 428,
434 (5th Cir. 2005). It must be sufficiently severe or pervasive to alter the conditions
of plaintiffs employment and create an abusive work environment. Harris v. Forklift
Systems, Inc., 510 U.S. 17, 21 (1993). Factors considered include the frequency of the
conduct, its severity, whether the conduct was physically threatening or humiliating
or a mere offensive utterance, and whether it unreasonably interfered with the
employee's work performance. Faragher v. City of Boca Raton, 524 U.S. 775, 787-88
(1998). The Supreme Court

has "made it clear that conduct must be extreme to

amount to a change in the terms and conditions of employment." Id. at 788.
The summary judgment evidence establishes that this is not the type of case where
it could be said that the alleged harassment was so severe or pervasive as to alter a
condition of plaintiffs employment. 5 See, e.g., E.E.O.C. v. Boh Bros. Constr.Co.,
L.L.C., 731 F.3d 444 (5th Cir. 2013); E.E.O.C. v. WC&M Enters.., Inc., 496 F.3d 393
(5th Cir. 2007). In fact, the court is satisfied that this claim is frivolous. Plaintiff does
not point to any evidence that even establishes the nature of the hostility he claims
existed. There is no evidence that race played any role. His claim of sexual
discrimination appears to be based solely on his speculation that Capili was

5 Plaintiff could recall only one instance when Tibor yelled at him. Doc. 24 at R. App. 16. He
also referred to inflammatory emails but provided no example. Id. He testified that he felt humiliated
on one occasion (unspecified in time) when Wilding came over to where plaintiff was sitting and two
other men were standing and said, "Hello, men," and then said, "Oh, and Tim." Id. at R. App. 30-31.

conspiring with Tibor to harm plaintiff. See, e.g., Doc. 24 at R. App. 6-7, 24 (assuming
"[s]he was sabotaging my work" refers to Capili), 25- 26, 27.. And, there is no evidence
of the existence of a hostile work environment of the type that would support a claim
at all. Plaintiff does not dispute that sex discrimination claims are not cognizable
under§ 1981. Doc. 23 at 6-7. See Bobo v. ITT, Continental Baking Co., 662 F.2d 340,
342-45 (5th Cir. 1981}; Eure v. Sage Corp,, 61 F. Supp. 3d 651, 660 (W.D. Tex. 2014}.
Plaintiff also agrees that he cannot proceed with his claims under Chapter 21, since
the EEOC failed to transmit his charge of discrimination to the Texas Workforce
Commission. Doc. 23 at 7-8.
See Urrutia v. Valero Energy Corp. 1 841 F.2d 123, 125 (5th Cir. 1988}; Cooper v.
Texas Wesleyan Univ., No. 05-09-00347-CV, 1999 WL 1179613, at *3-4 (Tex. App.
Dallas Dec. 15, 1999, pet. denied} .
The court need not address other grounds of the motion, such as limitations, even
though they have merit. There is simply no evidence of any genuine issue of material
fact for trial.

Order
The court ORDERS that defendant’s motion for summary judgment be, and is hereby,
granted, that plaintiff take nothing on his claims against defendant, and that such
claims be, and are hereby, dismissed.
SIGNED December 19, 2018.

Judge

Final Judgment
Consistent with the court's memorandum opinion and order signed this date, The
court ORDERS, ADJUDGES, and DECREES that plaintiff, Timothy C. Yoakum, take
nothing on his claims against defendant, Sabre GLBL, Inc., and that such claims be,
and are hereby, dismissed with prejudice.
The court further ORDERS, ADJUDGES, and DECREES that defendant have and
recover its court costs from plaintiff.
SIGNED December 19, 2018

Judge

f

